DATE:                                September 30, 2004



MEMORANDUM FOR:                      EMILY STOVER DeROCCO
                                     Assistant Secretary for
                                      Employment and Training Administration




FROM:                                ELLIOT P. LEWIS
                                     Assistant Inspector General
                                      for Audit


SUBJECT:                             ALERT REPORT: Health Coverage
                                     Tax Credit (HCTC)
                                     Report Number: 02-04-204-03-330


We are in the process of conducting a performance audit of the Health Coverage Tax
Credit (HCTC) bridge/gap1 program. Our preliminary work has been on the HCTC
bridge/gap program at the Maine Department of Labor (MDOL). During our preliminary
analysis of data, we came across a time sensitive issue that requires the Employment and
Training Administration’s (ETA) immediate attention. Specifically, as of
March 31, 2004, MDOL expended $298,000, or 4 percent of the $7.5 million awarded.
The grant was to expire June 30, 2004, but has been recently extended to June 30, 2005.
In addition, on a national scale2, expenditures are at extremely low levels. We found that
as of March 31, 2004, only 10 states have participated in the bridge/gap program and
have expended $3 million, or less than 9 percent of the $35 million awarded. Over half
of these grants have been in effect for at least one year.

ETA needs to immediately assess the need for outstanding funds at the 10 states and
where necessary, redirect funds to other states that are able to participate in the program.
This assessment and redirection of funds should be completed by ETA prior to
September 30, 2004, which is the fund availability deadline. If ETA does not take
immediate action, these funds may continue to be underutilized and individuals who are
in need of interim health coverage assistance may not be able to receive them as
authorized by the Trade Adjustment Assistance Reform Act of 2002.

1
 Bridge funding was utilized to provide interim health insurance coverage cost assistance until the HCTC
advance payment system was implemented on August 1, 2003. Gap funding is used to provide interim
health insurance coverage cost assistance until the IRS completes the advance credit enrollment and first
payment processes under the HCTC program.
2
 Information referred to as “national scale” refers to the states presented on page 4 of this report. All states
except Maine have not been subjected to audit procedures.
The Assistant Secretary for Employment and Training responded to the draft report on
September 30, 2004. ETA has taken constructive steps towards resolving our
recommendations. We consider recommendations 1(a), 2 and 4 resolved and closed.
(See recommendations on page 4.)

However, ETA still needs to proactively provide technical assistance to the participating
states to enhance performance, reach out to nonparticipating states to assist in lifting
barriers, and continue it’s coordination efforts with partnering organizations to work
towards seamless delivery and program enhancements that will increase the likelihood of
individuals participating in the program. ETA’s comments are incorporated on page 5 in
the report and the response is included in its entirety as an attachment to this report.

Background
The Trade Adjustment Assistance Reform Act of 2002 (P.L. 107-210), was signed by the
President on August 6, 2002. Among other things, the Act amended the Internal Revenue
Code of 1986 and the Workforce Investment Act of 1998 (WIA) to establish new
mechanisms by which certain Trade Adjustment Assistance (TAA) participants, as well
as eligible Pension Benefit Guaranty Corporation (PBGC) pension recipients, can receive
assistance in covering the cost of health insurance coverage. The primary mechanism for
such assistance is a Federal tax credit administered by the Internal Revenue Service. The
tax credit is equal to 65 percent of the amount paid by an eligible individual for coverage
of the individual and certain family members under qualified health insurance coverage.
The tax credit is applicable to qualified health insurance coverage costs paid by eligible
individuals and the credit was made available on an advance payment basis on
August 1, 2003.

The Act also established an additional mechanism, which is intended to be used as a
bridge/gap until eligible individuals can receive the tax credit on an advance basis, by
authorizing the use of National Emergency Grant (NEG) funds under WIA to assist in
paying the cost of qualified health insurance coverage.

To carry this out, the Act authorized $50 million of Fiscal Year (FY) 2002 NEG funds for
interim health insurance coverage and other assistance with a fund availability date until
September 30, 2004. As we understand the Act, ETA must have the $50 million
obligated by September 30, 2004. Further, based on correspondence received from
ETA’s Administrator of the Office of National Response, another $29.8 million has been
authorized using FY 2003 funds. ETA is in the process of determining the availability
period for FY 2003 funds.




                                            2
Objective, Scope and Methodology
Interim audit work is being conducted as part of audit planning to determine the scope of
an overall program performance audit. Our overall objective was designed to determine
if the states have implemented systems and programs that will effectively reduce the
number of uninsured eligible participants. We conducted interviews with ETA and
MDOL personnel, performed an expenditure rate analysis of FY 2002 funding and tested
for compliance with implementation guidance.

Our work was conducted in accordance with Government Auditing Standards, issued by
the Comptroller General of the United States. We conducted fieldwork from
June 8, 2004 through July 2, 2004. We held an exit conference with ETA officials on
July 27, 2004. They indicated they are aware of the issues and are developing actions to
remedy the situation.

Results
Our initial work concentrated on the Health Coverage Tax Credit bridge/gap program at
the Maine Department of Labor. Based on the low expenditure level at MDOL, we
expanded our analysis to include all 10 awarded bridge/gap grants to determine if the
same pattern existed nationwide.

Maine Department of Labor

As of March 31, 2004, MDOL has expended $298,000, or 4 percent, of the $7.5 million
FY 2002 funds awarded. The grant was to expire June 30, 2004, but has been recently
extended to June 30, 2005. The original grant called for “reach-back” bridge payments
for the period September 30, 2002 through June 30, 2003.

In MDOL’s request for grant modification dated December 18, 2003, the grantee
specifically recognized that its original proposal was overstated and that the participant
level was lower than expected. We asked MDOL why participation was low. Although
they could not provide conclusions based on factual information, they were of the opinion
that the high cost of the participants’ required contribution towards the medical insurance
premium was a significant factor in the low participation level. MDOL further advised
that its revised cost projection through June 30, 2004, would be $596,000 or a $6.9
million reduction from its original estimate. Further MDOL advised that the scope of the
grant would be modified from a “bridge” payment to a “gap” payment basis. The grant
extension to June 30, 2004, was granted. However, no action was taken on the request
for grant reduction. By MDOL’s own admission, HCTC funds will not be fully utilized.
In fact, actual expenditures at June 30, 2004 only totaled $378,000 vs. the
$596,000 originally projected.




                                            3
National

A preliminary analysis of states around the country shows that less than 9 percent of the
funds awarded had been expended even though over half of these grants have been in
effect for at least one year.

                                      Fiscal Year 2002 Funding
                             Effective      Award       Expenditures     Percent to
                    3
            State              Date        Amount       3/31/2004       Award Amount

            Maine              9/1/2002    $7,500,000      $297,576         4.0
            Maryland           3/3/2003     5,632,000        15,934         0.3
            Minnesota          1/1/2003    4,000,000        193,701         4.8
            Montana            4/1/2003      266,923        114,548        42.9
            New Jersey         1/1/2003     1,930,000        30,931         1.6
            North Carolina     8/1/2003     7,614,684     1,214,839        16.0
            Utah               4/1/2003      721,415        693,785        96.2
            Virginia           8/1/2003     3,176,800       481,343        15.2
            W. Virginia        6/1/2003     2,852,374               0       0.0
            Washington         6/1/2003     1,512,000               0       0.0       .




             Total                        $35,206,196    $3,042,657         8.6   .




Based on the current spending trends, funds that have been authorized will be under-
utilized. The underutilization of funds indicates that the program is not working as
intended by the Act.

Recommendations

We recommend that the Assistant Secretary improve HCTC grant management and
performance by:

    1. Conducting an immediate assessment of awarded bridge/gap grants to determine
       (a) the need for outstanding funds, and (b) reasons for such underutilization.

    2. Ensure Federal Project Officers (FPO) identify program deficiencies in a timely
       manner and institute corrective actions to address those deficiencies.

    3. Reaching out to the 40 non-participating states and determining their bridge/gap
       payment needs.

    4. Reallocating funds to the states as appropriate.




3
 With the exception of Maine, information presented was obtained from the Employment and Training
Administration and has not been subjected to audit procedures.
                                                    4
Agency’s Response

ETA stated that strategies are in place or are being planned to deal with the funding
issues as well as to facilitate the participation of more states in the NEG HCTC program.
In addition, ETA stated that other actions have taken place since the report issuance
pertaining to OIG recommendations as summarized below:

    •   One additional state award and three pending applications will ensure that all
        FY 2002 funds will be obligated by September 30, 2004.

    •   FY 2002 funds will be available for expenditure at a minimum through
        September 30, 2007. Grantees have been informed.

    •   ETA issued a TEGL regarding refined policy guidance pertaining to the use of
        NEG HCTC funds to make “gap-filler” payments.

    •   ETA Regional offices canvassed grantees to identify any unneeded funds. With
        minor exception, ETA states that no funds are being returned by the grantees.

    •   ETA is advising states that additional resources are available for system building.

    •   On September 8, 2004 a working session with IRS HCTC was convened to
        examine the implementation of the HCTC program and to address program areas
        needing improvement.

Auditors Conclusion

ETA has taken constructive steps towards resolving our recommendations. We consider
recommendations 1(a), 2 and 4 resolved and closed. ETA still needs to proactively
provide technical assistance to the participating states to enhance performance, reach out
to nonparticipating states to assist in lifting barriers, and continue it’s coordination efforts
with partnering organizations to work towards seamless delivery and program
enhancements that will increase the likelihood of individuals participating in the program.

        Recommendation 1(b)

        ETA has not provided any specific actions or plans relative to determining the
        reasons behind the underutilization of funds. It is apparent that although ETA is
        extending grant periods, there continues to be underlying problems in the
        program. Nationally, state expenditure levels continue to be low. At
        June 30, 2004, only 14 percent of obligated funds have been expended. Five of
        the ten original states, accounting for $21 million, have only expended 3 percent
        of awarded funds.



                                              5
       To date, we have completed fieldwork at two states, Maine and Maryland. Both
       states have been running Gap programs and both have indicated that through
       June 30, 2005, awarded funds grossly exceed their needs. Maine projected needs
       of $725 thousand leaving excess funds of $6.8 million and Maryland projected
       needs of $436 thousand leaving excess funds of $5.2 million. Even if grant
       periods are ultimately extended to September 30, 2007, it seems unlikely that
       funds will be utilized unless significant performance improvements occur.

       Recommendation 3

       ETA has taken some general actions including additional TEGL guidance and
       announcing fund availability. However, it’s response lacks specific actions that
       will identify reasons why so many states are not participating, identify barriers
       and plans to help lift identified barriers.


***********************************************************************


We request a response to this report within 60 days. It is your responsibility to promptly
transmit the attached report to program officials for resolution.

I would like to express our appreciation for the cooperation and courtesy that was
extended to us by your staff during our audit. We are continuing work on our
performance audit. An additional report will be issued upon completion. If you have any
questions regarding this interim report, please contact Richard H. Brooks, Regional
Inspector General for Audit, at (646) 264-3500.


Attachment




                                            6
